U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

August 30, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Patrick Eugene Stein v. United States, No. 20-8458
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on June 24, 2021.
The government’s response is now due, after one extension, on August 30, 2021. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
September 29, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Brian H. Fletcher
Acting Solicitor General
cc:

See Attached Service List

20-8458
STEIN, PATRICK EUGENE
USA

MEREDITH B. ESSER
ASSITANT FEDERAL PUBLIC DEFENDER
633 17TH STREET
SUITE 1000
DENVER, CO 80202
303-294-7002
MEREDITH_ESSER@FD.ORG

